<html>
<title> - OUR NATION OF BUILDERS: TRAINING THE BUILDERS OF THE FUTURE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






      OUR NATION OF BUILDERS: TRAINING THE BUILDERS OF THE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2013

                               __________

                           Serial No. 113-97


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   _____

                    U.S. GOVERNMENT PUBLISHING OFFICE 

92-985 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 _____

           Subcommittee on Commerce, Manufacturing, and Trade

                          LEE TERRY, Nebraska
                                 Chairman
LEONARD LANCE, New Jersey            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          JOHN P. SARBANES, Maryland
GREGG HARPER, Mississippi            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    JOHN A. YARMUTH, Kentucky
DAVID B. McKINLEY, West Virginia     JOHN D. DINGELL, Michigan
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             JIM MATHESON, Utah
GUS M. BILIRAKIS, Florida            JOHN BARROW, Georgia
BILL JOHNSON, Ohio                   DONNA M. CHRISTENSEN, Virgin 
BILLY LONG, Missouri                     Islands
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     3
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, opening statement...............................     5
Hon. Gus M. Bilirakis, a Representative in Congress from the 
  State of Florida, opening statement............................     5
Hon. Bill Johnson, a Representative in Congress from the State of 
  Ohio, opening statement........................................     6
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    67

                               Witnesses

Jennifer McNelly, President, The Manufacturing Institute.........     8
    Prepared statement...........................................    10
    Answers to submitted questions...............................    69
Allyson Knox, Director of Education Policy and Programs, 
  Microsoft Corporation..........................................    15
    Prepared statement...........................................    17
    Answers to submitted questions...............................    73
Sandra Westlund-Deenihan, Chief Executive Officer and Design 
  Engineer, Quality Float Works, Incorporated....................    36
    Prepared statement...........................................    38
    Answers to submitted questions...............................    78
Lazaro Lopez, Associate Superintendent, Township High School 
  District 214, State of Illinois................................    43
    Prepared statement...........................................    45
    Answers to submitted questions \1\...........................    85
Catherine Hill, Director of Research, American Association of 
  University Women...............................................    52
    Prepared statement...........................................    54
    Additional material for the record \2\.......................

----------
\1\ Mr. Lopez did not answer submitted questions for the record 
  by the time of printing.
\2\ The report ``Women In Community Colleges: Access to Success'' 
  submitted by Ms. Hill is available at http://docs.house.gov/
  meetings/IF/IF17/20131115/101480/HHRG-113-IF17-Wstate-HillC-
  20131115-SD001.pdf.

 
      OUR NATION OF BUILDERS: TRAINING THE BUILDERS OF THE FUTURE

                              ----------                              


                       FRIDAY, NOVEMBER 15, 2013

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
room 2123, Rayburn House Office Building, Hon. Lee Terry 
(chairman of the subcommittee) presiding.
    Members present: Representatives Terry, Lance, Blackburn, 
Guthrie, Olson, Pompeo, Kinzinger, Bilirakis, Johnson, Long, 
Schakowsky, McNerney, and Barrow.
    Staff present: Charlotte Baker, Press Secretary; Kirby 
Howard, Legislative Clerk; Nick Magallanes, Policy Coordinator, 
Commerce, Manufacturing, and Trade; Brian McCullough, Senior 
Professional Staff Member, Commerce, Manufacturing, and Trade; 
Gib Mullan, Chief Counsel, Commerce, Manufacturing, and Trade; 
Shannon Weinberg Taylor, Counsel, Commerce, Manufacturing, and 
Trade; Michelle Ash, Democratic Chief Counsel, Commerce, 
Manufacturing, and Trade; and Will Wallace, Democratic 
Professional Staff Member.
    Mr. Terry. Good morning. Thank you. I want to welcome all 
of our witnesses, and I will introduce you as a panel after the 
opening statements just before we start your testimony.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    So I am going to go ahead and begin my statement and 
welcome all of our witnesses here. This is the sixth 
installment in ``Our Nation of Builders'' series. And the 
subject matter we are discussing today brings together a common 
thread from all of our witnesses who have previously testified, 
that the demands for middle- or semiskilled workers within the 
manufacturing industry is an across-the-board issue. I will be 
blunt--everyone testified that they have job openings that they 
have difficulty filling in today's advanced manufacturing 
because of the lack of middle-skilled workers.
    So with that, we have seen a variety of different ways of 
creating their own. We had Toyota here, who created their own 
community college, on campus, to be able to teach the skills 
that are necessary in operating today's more modern equipment.
    I visited in Omaha an old tool-and-die shop. That when I 
was 13, my brother-in-law and his dad had a tool-and-die shop, 
and I--my job was to sweep up all the metal shavings. That was 
really my first--well, it wasn't really a real job. But they 
would also teach me how to run one of the lathe machines. In 
today's world, if you walk into a similar tool-and-die shop, 
like I did at Tri-V, a family-owned tool-and-die shop, you 
would see that everything has computer screens and keyboards to 
operate them.
    And they talk about how many job openings, and they found--
they introduced me to a high school girl from Bellevue West 
High School, a senior, that is in a Dream It. Do It. program, 
and they have told her if she works for them, they will pay for 
her 2 years at the community college, Southeast Community 
College, one of the couple that are left.
    So business is trying to figure out a way around this. But 
we have identified this, and Jan has particularly been dogged 
on this issue, what can we do in Congress to make sure that 
those folks coming out of high school today have the requisite 
skills to walk into any manufacturing and have a job and can be 
successful in that job?
    Why it is so important is, A, I think just our basic 
economy. If we aren't making things, then where--where is our 
middle class going to come from? Historically the middle class 
has come from the manufacturing sector. Everyone that 
testified, the small foundry in Jan's district or the 
fabricator in my district, they walk in in Omaha, Nebraska, and 
start at 40,000. We learned in the automobile industry and the 
steel industry, you walk in, you are earning $77,000 to 80,000 
with those skills. That is what built America, that is what 
builds our economy, and that is what builds families, frankly. 
That is a successful family when they can walk into a 
manufacturing plant and earn 70- or $80,000 a year.
    So we need to get that back in this country. The Great 
Recession, we lost 5 million manufacturing jobs. Fortunately, 
we have regained 500,000 of that, mostly through the energy, 
steel, automobile industries. But a question lingers: If we can 
successfully get 4.5- new manufacturing jobs in this United 
States, how do we get the labor? So while this strengthens 
families and provides hope for people with--that don't want to 
go to school that--to college that they can have a successful 
job and raise their families, and meet their expectations, 
where are those people going to come from?
    And so we have educators here today. We have a variety of 
people that are involved in STEM education, because all of the 
folks, manufacturers who have testified before this said it 
really comes down to our STEM education in the United States.
    [The prepared statement of Mr. Terry follows:]

                  Prepared statement of Hon. Lee Terry

    Good morning and welcome to today's hearing-the sixth 
installment in our Nation of Builders series.
    The subject matter we will be discussing today brings 
together a common thread that appeared in almost all of our 
manufacturing hearings: the demands that our manufacturing 
renaissance is placing on our workforce-especially workers 
trained in science, technology, engineering and math-is 
resulting in a current and future shortfall of workers.
    Several witnesses testified-whether it was the local 
foundry or Toyota-that they are having problems finding skilled 
workers with the requisite STEM skills to fill 21st century 
manufacturing jobs. More concerning was the fact that many of 
these companies said the problem only gets worse in the future. 
If the United States cannot supply the type of labor needed to 
fill these good jobs, these companies may choose to operate in 
a nation that can. When a company cannot find the workers it 
needs to fill certain jobs, we are hamstringing productivity, 
potential for growth, and competitiveness.
    According to the Manufacturing Institute, STEM jobs are 
projected to grow by 17 percent between 2008 and 2018. 56 
percent of manufacturing executives already believe that the 
skilled workforce shortage we are experiencing will increase 
over the next 3 to 5 years, culminating in a projected shortage 
of as many as 700,000 unfilled skilled jobs by 2020.
    The good news is that this problem hasn't gone completely 
unnoticed. As many as 252 STEM education activities or programs 
are currently being run by several different Federal agencies. 
Yet we are still facing a reality where technology companies 
like Microsoft cannot find trained computer technicians and the 
local foundry in Omaha cannot fill openings it has for welders. 
Clearly there is work to be done.
    As Dr. Hill aptly points out in her testimony, many of 
these STEM jobs are "middle-skill" jobs that require more than 
a high school education but less than a bachelor's degree. And 
on average, these middle skills jobs earn 40 to 60 percent more 
than non-STEM positions. The same distinction is true for other 
STEM workers, who earn 26 percent more than their respective 
counterparts. These are good jobs that provide employees great 
benefits, and ample on the job training so they can keep moving 
up in the 21st century economy.
    Congress needs to come up with fresh ideas on how we can 
continue to train the next generation of builders, programmers, 
manufacturers, technicians and entrepreneurs. There is surely 
going to be more than one answer, and working with the private 
sector to leverage our potential will be a must. I would like 
to thank today's witnesses for attending and I look forward to 
your testimony.

    Mr. Terry. So I want to thank all of our witnesses, and I 
am going to recognize our ranking member of the subcommittee, 
who has probably at least once a week since we started this 
said, ``When is our STEM hearing?,'' Jan Schakowsky.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. And here we are. So thank you very much, 
Mr. Chairman.
    I want to thank all of our witnesses that are here today, 
but I take special pride in welcoming Dr. Laz Lopez, who I 
would like to say is a friend, but also, since I have met him, 
as an outstanding educator. Before taking over as now associate 
superintendent for teaching and learning for School District 
214, Dr. Lopez spent 6 years as principal of Wheeling High 
School, a neighborhood public school. He implemented the STEM 
for all initiatives, ensuring that all students graduate with a 
Diploma Plus, so that they can compete for 21st century jobs. 
Over his time as principal, Wheeling High School set the 
highest ACT scores in the school's history and improved its 
performance on Advanced Placement tests.
    Wheeling High School is recognized for its outstanding STEM 
program by our Governor Pat Quinn and many educational 
organizations. Last year Dr. Lopez was recognized as the 
Illinois Principal of the Year. And I am so glad to have him 
here, and I know his insight is going to be tremendously 
valuable as we consider how to prepare our students for the 
jobs of tomorrow. With total respect, I say, if Wheeling High 
School can do it, we can do it everywhere in this country.
    In our previous hearings the series of ``Nation of 
Builders,'' we have heard from home builders and steelmakers 
and automakers and other manufacturers. Many witnesses have 
expressed a demand for more American workers who are able to 
handle the advanced manufacturing jobs of the future, really of 
today and the future, jobs that require STEM literacy. A well-
educated workforce is a basic requirement for a strong domestic 
manufacturing sector. The U.S. manufacturing sector is growing, 
but that can't continue if we do not adequately prepare our 
workforce especially as we face increased competition from 
nations around the world.
    My congressional district is home to the Illinois Science 
and Technology Park, where innovative companies are hard at 
work developing nanotechnology, biotechnology, and flexible 
electronic products, among others. Those companies represent 
the future of advanced manufacturing in America, and their 
employees have to have strong STEM backgrounds.
    The State of Illinois has been a leader in STEM education 
and training through the State's Illinois Pathways Race to the 
Top program. The Illinois Science and Technology Institute was 
chosen to lead a learning exchange focused on STEM education. 
The learningexchange will last 3 years, allowing students and 
their teachers to work collaboratively with businesses--I think 
that is a key to the program I hope we will hear more about--to 
improve STEM education and expand opportunities for hands-on 
STEM experiences for students.
    The Federal Government has also played a role in STEM. The 
Obama administration has made significant efforts to develop 
tomorrow's workforce, engaging in public-private partnerships 
to improve STEM, encouraging more girls, women, and minorities 
to pursue STEM courses and careers, and recognizing and 
rewarding the best teachers in the STEM fields. Congress has 
supported STEM training through the passage and reauthorization 
of the America Competes Act, among other efforts. And I am 
hopeful that the bipartisan focus on STEM that you are going to 
see here today will continue.
    I think we all agree that preparing today's students for 
tomorrow's jobs should be a priority. I look forward to hearing 
from our witnesses representing high schools, universities, 
large corporations, and small businesses that are leaders in 
STEM education and employment. I hope to learn about how their 
successes can be replicated, and how their remaining challenges 
can be addressed.
    I really am hopeful that this subcommittee is going to take 
the lead; that we are going to provide a blueprint for the rest 
of our colleagues, for the rest of the Congress, on how we can 
meet the challenges of our students, of our businesses and of 
our economy in the United States.
    Thank you, Mr. Chairman.
    Mr. Terry. Thank you.
    Now recognize the gentleman from New Jersey, the vice chair 
of this subcommittee, for his 5 minutes.

 OPENING STATEMENT OF HON. LEONARD LANCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Lance. Thank you, Mr. Chairman, and good morning to the 
distinguished panel. I apologize if I am in and out; there is 
also a Health Subcommittee hearing this morning. But let me say 
I consider this to be an extremely important topic to the 
future of the Nation. And this is the way Congress should work, 
in a completely bipartisan fashion, because we are all deeply 
concerned about this issue, and it affects the middle class, 
and we all want a strengthened middle class.
    The so-called STEM, science, technology, engineering, and 
math sector, plays an integral role in New Jersey, the State I 
have the honor of representing. According to a study 
commissioned by the Public Policy Institute at Georgetown, New 
Jersey will need a total of approximately 248,000 STEM jobs by 
2018, up from approximately 223,000 in 2008. This represents an 
11 percent increase in STEM jobs, and 93 percent of these jobs 
will require postsecondary education and training.
    In New Jersey's Seventh Congressional District, the STEM 
field plays a particularly important role in the economy. The 
pharmaceutical, telecommunications, and manufacturing companies 
in the district I serve employ STEM graduates. Institutions 
such as Union County Magnet High School prepare students to 
compete for these high-paying, high-quality STEM jobs.
    However, despite the gains of manufacturing jobs the United 
States has seen recently and the increase of STEM jobs, there 
are many questions as to whether or not we will be able to meet 
the demand for STEM jobs in the future. Hence, today we examine 
the skills gap the United States faces between the number of 
qualified STEM candidates for jobs and the vacancies employers 
have for these jobs, a gap that is almost certain to widen if a 
solution cannot be found. This gap threatens the ability of the 
United States to compete with other countries around the world 
in these important fields now and certainly in the future.
    Today's panel is distinguished in academic, manufacturing, 
and technological worlds, on the front line to narrow the 
skills gap in this country and realize the Nation's vision of 
being at the forefront of 21st century innovation. I look 
forward to hearing from your perspectives on this critically 
important issue, and I am certainly welcome to yield time to 
Mr. Bilirakis from Florida.

OPENING STATEMENT OF HON. GUS M. BILIRAKIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Bilirakis. Thank you so much. I appreciate it.
    Thank you for holding this hearing as well, Mr. Chairman.
    Successfully training the builders of the future is vital 
to the economic well-being of our country. This training should 
focus on in-demand industries; enhance opportunities for 
individuals to be placed in quality, well-paying, private-
sector jobs; and respond to the needs of employers so economic 
growth can be sustained. One area of promise is on-the-job 
training and apprenticeships for students.
    Earlier this year a delegation of leaders from the business 
and economic development communities in the Tampa Bay area 
visited Germany to learn how that country's dual vocational and 
apprenticeship program successfully connects students at 
technical training facilities with job-creating companies. That 
delegation brought back some important lessons about helping 
the future Tampa Bay workforce compete in a global economy. If 
young Americans can simultaneously acquire job experience, 
technical training, and work ethic lessons while completing 
their education, it is my belief that the American economy will 
continue to prosper.
    As a father of four sons who will soon be entering 
America's workforce, I am interested in exploring how we can 
help equip our younger generations with the necessary tools for 
success. I welcome thoughts from our panel today--thanks for 
being here--on how to provide students with the crucial 
technical skills and professional work experience at earlier 
stages in their education.
    Thank you, Mr. Chairman, for holding the hearing, and I 
yield back.
    Mr. Lance. Thank you.
    And I yield the balance of my time to Mr. Johnson of Ohio.

  OPENING STATEMENT OF HON. BILL JOHNSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Johnson. Thank you.
    And, Mr. Chairman, thank you for holding this hearing as 
well.
    I represent a region of Ohio, Appalachia, Ohio, that has 
been devastated with the loss of its manufacturing base. Steel 
industry has pretty much left, and of my 18 counties, 14 of 
them are in the top one-third of Ohio's highest unemployed 
counties in the State. So jobs and the economy are a big thing 
to the people that I represent.
    There is a prosperity boom coming, though, with oil and 
natural gas, and trying to stay on the front side of that curve 
and provide the education that our young people need to prepare 
them for those kinds of jobs is a big challenge. So workforce 
development is huge. There is not a week that goes by that I am 
in my district that I don't get questions about how can my son 
or daughter prepare themselves for some of these oil and gas 
jobs. And as manufacturing begins to come back and take 
advantage of that nearly boundless source of energy, the 
opportunities are going to be there. I want to make sure my 
young people are ready to go.
    So thank you, Mr. Chairman.
    Mr. Terry. Thank you.
    I now recognize the gentleman from California for 5 
minutes.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Thank you, Mr. Chairman. I appreciate you 
holding this hearing today.
    Mr. Johnson took away some of my fire here, but there is an 
interesting trend happening. Because of increasing production 
of oil and natural gas, manufacturing is beginning to move back 
to this country from other sources, from other places. That is 
a tremendous opportunity for us, but if we don't have a skilled 
workforce, we are not going to be able to take full advantage 
of that opportunity.
    Now, putting environmental concerns aside, we want--for the 
time being, we want to make sure that there is enough workforce 
out there. So your input is appreciated. The cooperation across 
the subcommittee and the full committee is appreciated.
    And with that, I am going to yield to the ranking member.
    Ms. Schakowsky. Thank you. Just a minute more.
    I think, as the chairman alluded, I am sort of obsessed 
about this issue. But I also want to make an observation. You 
know, the hearings that we have in this committee and other 
subcommittees, often the room is full, and cameras are all over 
the place mainly documenting conflict, one side of the aisle 
and the other.
    I happen to think that cameras ought to be loaded in this 
room; that this is where it is at for our country right now, 
that the kind of work that we are trying to do and to establish 
a framework of how government--how we--can be a partner to make 
our economy boom right now, and prepare our students, our 
American students, for the jobs of the century. And I hope as I 
said earlier that we can press forward with this kind of 
bipartisan effort to put it front and center. So I don't want 
to take any more time from our witnesses other than to just say 
how important I think your presence here today is and how 
important you are to our country. Thank you.
    Mr. Terry. I think all of us echo that. That was very good, 
Jan.
    So at this point we are going to start our testimony from 
our grand witnesses here. We have Jennifer McNelly, president 
of the Manufacturing Institute; then next to her, Allyson Knox, 
director of education policy, and programs with Microsoft. Then 
we have Sandra Westlund--is it Deenihan?
    Ms. Westlund-Deenihan. Yes.
    Mr. Terry. Chief executive officer, Quality Float Works 
Incorporated; Lazaro Lopez, that Jan mentioned in her opening 
statement. He is associate superintendent for teaching and 
learning, Township High School District 214, State of 
Illinois--not Illinois; Catherine Hill, Ph.D. director of 
research, American Association of University Women.
    I thank all of you for being here and sharing your 
expertise and insight.
    We give each witness 5 minutes. At 5 minutes, there's a 
sign up here that if it is a red light, I am going to start 
tapping the gavel, and that means sum up quickly.
    So, and we will go from Miss McNelly--Nelly? Neilly?----
    Ms. McNelly. Nelly.
    Mr. Terry [continuing]. To Dr. Hill.
    And now you are recognized for your 5 minutes, Ms. McNelly.

 STATEMENTS OF JENNIFER MCNELLY, PRESIDENT, THE MANUFACTURING 
   INSTITUTE; ALLYSON KNOX, DIRECTOR OF EDUCATION POLICY AND 
  PROGRAMS, MICROSOFT CORPORATION; SANDRA WESTLUND-DEENIHAN, 
  CHIEF EXECUTIVE OFFICER AND DESIGN ENGINEER, QUALITY FLOAT 
 WORKS, INCORPORATED; LAZARO LOPEZ, ASSOCIATE SUPERINTENDENT, 
   TOWNSHIP HIGH SCHOOL DISTRICT 214, STATE OF ILLINOIS; AND 
 CATHERINE HILL, DIRECTOR OF RESEARCH, AMERICAN ASSOCIATION OF 
                        UNIVERSITY WOMEN

                 STATEMENT OF JENNIFER MCNELLY

    Ms. McNelly. Thank you, Chairman Terry, Ranking Member 
Schakowsky, Vice Chairman, and members of the committee. Thank 
you for the opportunity to testify today on behalf of The 
Manufacturing Institute, the national authority on the 
attraction, qualification, and development of world-class 
manufacturing talent, an affiliate of the National Association 
of Manufacturers.
    Manufacturing remains an important economic force in 
regions across the country, but confronts a serious challenge: 
access to talent. In our most recent skills gap report, 82 
percent of manufacturers report a moderate to serious shortage 
in skilled production labor. Today companies, especially 
smaller businesses with fewer training and HR resources, cannot 
afford the luxury of time-intensive training programs for their 
workers. They need employees who have knowledge and skills and 
can contribute right away.
    The best way to address this challenge is to align 
education, economic, workforce, and business agendas. As 
representatives of the manufacturing industry, we found a 
solution that meets the needs of our businesses, while working 
within the existing secondary and postsecondary education 
structure.
    Our solution, called the Skills Certification System, is a 
series of nationally portable, industry-recognized credentials 
based specifically on employer-identified skills. These 
credentials, used by companies across the country, clearly lay 
out a training required for a career in manufacturing.
    However, success is not attained merely by designing a 
system; it must create results. In the past 2 years, we have 
helped to ensure that employers have access to over 173,000 
individuals with the needed skills to enter into and advance in 
manufacturing careers. In our Return on Value survey, over 90 
percent of the manufacturers using certifications believe they 
make a difference in validating the skills of their employees.
    These outcomes are what we need to support and strengthen 
manufacturing and put individuals back to work, but we can't 
certify workers without a pipeline.
    In addition to skill certification, we need to address the 
common misperceptions about manufacturing. While 7 out of 10 
parents want manufacturing in their community, only 3 out of 10 
want their children to be that manufacturer. We need to make 
manufacturing cool again.
    On October 4th, over 800 of our Nation's manufacturers 
opened their doors on National Manufacturing Day and invited 
parents, students, teachers, and counselors in. One of those 
manufacturers is T.R. Raimondo of Behlen Manufacturing in 
Columbus, Nebraska. Behlen is addressing the image issue by 
engaging its employees under the age of 30 as the voice of 
manufacturing to the next generation of job seekers. T.R. Is 
leading Dream It. Do It., a community-based network that aims 
to promote manufacturing as a top-tier career choice. With over 
half the country engaged in Dream It. Do It., the network is 
working to attract the next generation of workers.
    The Manufacturing Institute is also targeting midcareer 
workers, including veterans and women, people like Daniel 
Brewer, a Cincinnati native who entered the Navy after 
graduation and received aviation electrical training. After 
deployment in Afghanistan, Daniel returned to civilian life 
with no formal job training and drifted from job to job. In 
February, Daniel joined the inaugural class of Get Skills to 
Work at Cincinnati State Technical and Community College and 
participated in a 4-week skill-certification program, ending as 
a certified production technician. Daniel's training and 
participation in Get Skills to Work led to employment with GE 
Aviation.
    For many years, postsecondary success was defined as a 4-
year degree, when, in fact, a valid industry-based credential 
can be the gateway to a well-paying job and a solid middle-
class career. As a Nation, we need a new strategy for our 
manufacturing workforce grounded in industry standards with a 
new and renewed cooperation between industry, education, 
economic development, and the publicly funded workforce 
investment system. We need men, women, and children to view 
manufacturing as a top-tier career choice and have a path 
towards that career. Developing that path is good for 
manufacturing and good for the Nation.
    Thank you for the opportunity to testify today. We look 
forward to working with you to build the next generation.
    Mr. Terry. Thank you.
    [The prepared statement of Ms. McNelly follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. Ms. Knox, you are recognized for 5 minutes.

                   STATEMENT OF ALLYSON KNOX

    Ms. Knox. Good morning, Chairman Terry, Ranking Member 
Schakowsky, and all the members of the subcommittee. Thank you 
for exploring the national skills gap and for inviting me to be 
a part of these hearings.
    My name is Allyson Knox. For 10 years I worked in the 
fields of education, workforce development, and economic 
development in Michigan at the local, and regional and State 
levels. Nine years ago I began my work for Microsoft and 
currently serve as director of education policy and programs.
    This morning I would like to focus on the skills gap facing 
this Nation, particularly in respect to computer science, ways 
in which Microsoft is addressing these challenges, and conclude 
with brief recommendations.
    Each year for the next 10 years, this country will generate 
120,000 jobs requiring a bachelor's degree in computer science, 
while at the same time our country graduated just 52,000 
students with a bachelor's degree in computer science last 
year. This deficit of 70,000 degrees annually defines the 
challenge facing not only Microsoft, but all industries.
    All companies are software companies. Think of it. In 
manufacturing we need people who can design and use simulations 
to improve products. In health care we need people who can 
explore vast quantities of data produced by DNA sequencing 
techniques. In the arts we need people who can design new 
special effects for movies.
    Through numerous public-private partnerships, Microsoft is 
working to ensure that all students have the skills to compete 
in the global economy. There are three in particular that I 
would like to highlight for you this morning. First is our 
initiative to broaden access to computer science education at 
the high school level. Today only 8 percent of high schools in 
the U.S. offer AP computer science courses, and just 2 percent 
of all the AP exams taken last year were in this critical 
subject area. This is in part driven by the fact that only 15 
States reward students who take computer science with a credit 
that will help them graduate from high school.
    We are working with Governors and legislators across the 
country in order to expand the number of States that recognize 
the importance of computer science courses. At Microsoft we are 
also partnering with schools to help increase the number of 
students who take AP computer science exams through our TEALS 
program. ``TEALS'' stands for Technology Education and Literacy 
in Schools. TEALS places computer science professionals in the 
high school. TEALS volunteers to teach basic and Advanced 
Placement computer science courses with teachers. Today the 
TEALS program is operating in 70 schools in 12 States. This 
school year more than 280 volunteers will teach 3,000 students, 
and this model continues to grow very rapidly.
    A second initiative called Partners in Learning supports 
all teachers as they help students integrate technology into 
their learning. This is a 15-year, $750 million worldwide 
commitment. Over the last 10 years and in the United States, 
Microsoft invested $50 million in specific Partners in Learning 
programs, such as the Innovative Teachers program, the Partners 
in Learning Network, Innovative Schools, the Microsoft 
Innovative Educator program. We have reached 1 million U.S. 
teachers and students through this initiative.
    The third initiative is called the Microsoft IT Academy 
program. This program ensures that students and adults can 
access technology certifications. ITA is designed to provide 
students and adults with college and career-ready technical 
skills, including network administration, databases, and 
collaboration skills. Its 250 courses are offered online, in 
person, or a hybrid version. Microsoft works directly with 
State government leaders to systematically deploy the ITA 
program to citizens throughout the State.
    To conclude, there are three areas we hope Congress 
continues to focus on: number one, support teachers. Through 
our partnerships we see firsthand the dedication and 
determination of teachers striving to help their students be 
successful. And while we commend the States for aligning K-12 
standards to skills necessary for college and careers, we 
recognize that teachers and schools need additional support.
    Number two, help students complete postsecondary education. 
Our Nation must also address the fact that too few students 
enter STEM subjects in college, and of those who do, too few 
are successful in completing that degree. We need more of a 
national focus on helping students enter and complete these 
subject areas.
    Number three, strengthen our Nation's job-training system. 
The fact that so many individuals are unemployed while 
employers simultaneously face such difficulty in finding the 
right skilled workers to fill a variety of high-paying jobs 
points to a skills mismatch that must also be addressed through 
better integrated technical career and job-training systems.
    I have elaborated on these recommendations in my written 
testimony, and I would be happy to discuss them in more detail 
during questions and answers. Thank you again for the 
opportunity----
    Mr. Terry. Appreciate that.
    Ms. Knox [continuing]. To testify, and I look forward to 
your questions.
    Mr. Terry. Thank you, Ms. Knox.
    [The prepared statement of Ms. Knox follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. Ms. Westlund-Deenihan, you are now recognized 
for your 5 minutes.

             STATEMENT OF SANDRA WESTLUND-DEENIHAN

    Ms. Westlund-Deenihan. Thank you, Chairman Terry, Ranking 
Member Schakowsky, and distinguished members of the committee. 
Thank you for the opportunity to appear today to testify on 
behalf of Quality Float Works Incorporated at our hearing on 
``Our Nation of Builders: Training the Builders of the 
Future.'' My name is Sandra Westlund-Deenihan, and I am the CEO 
and design engineer of Quality Float Works Incorporated, the 
premier manufacturer of floats and assemblies used in gas, oil, 
plumbing, and agricultural applications across the globe.
    In 1915, my grandfather started a manufacturing company out 
of his home on the southwest side of Chicago. Today, more than 
98 years later, our company remains a third- and fourth-
generation, family-owned-and-operated business. I run the 
company, and my son works with me, Jason Speer.
    Our company currently exports its products to such 
locations including Europe, Asia, Australia, and several 
locations throughout Latin America and the Middle East. In 
fact, in 2013, we were honored by the U.S. Small Business 
Association as Illinois' Small Business Exporter of the Year. 
And I am happy to report that due to our efforts, to 
diversifying and expanding globally, Quality Float Works is 
thriving. Overall sales have increased roughly 200 percent over 
the past decade, with international sales skyrocketing from 3 
percent to 37 percent of our business.
    So ``Quality'' isn't just in our name, it is also in our 
product. Our floats are engineered to the most exacting 
standards and built with the know-how of skilled craftsmen. 
Moreover, we custom-design many floats and have a built--a 
best-in-class reputation among customers and the industry.
    To maintain this level of quality, we need a workforce with 
the skills and the knowledge to understand precision 
instrumentation and production. Our customers demand and expect 
precision manufacturing, and precision manufacturing requires a 
basic knowledge of STEM competencies, science, technology, 
education, and math, yes, even for the entry-level worker. It 
always amazes me how many times I have had to teach a member of 
my team how to use a ruler, utilize fractions and decimals, and 
if I didn't have a digital clock on the wall, they might not 
know how to tell time.
    The skills gap is real and poses a serious economic threat 
to American competitiveness. The bottom line is if we as 
employers cannot find qualified applicants for jobs, it impacts 
our business and our profitability.
    Please understand, this is not just about educating 
students to fill our positions; it is also about making sure 
our children have the opportunity and the tools to get a 
quality education, a good, high-paying job, and the ability to 
achieve their dreams and to become self-sufficient. Unless we 
and the industry leaders engage ourself personally in the 
solution, nothing is going to change.
    It would be easy for me as the CEO of a company to complain 
about the quality of the applicants, blame the education 
system, and put the onus on someone else to fix it, but I know 
that is not going to change anything. We need to find solutions 
that get results, both short and long term. We need to partner 
with our schools to create a system that meets the immediate 
needs of employers today, adequately trains and prepares the 
workforce of the next 5 to 10 years, establish a solid 
educational foundation for our children, and mentor young 
people on the benefits of manufacturing and STEM careers.
    It is for this reason I am excited to be serving on the 
newly created National Association of Manufacturing Board of 
Directors Task Force on Competitiveness and the Workforce. Our 
mission is to take a serious look on the workforce problems, 
skills gap, and STEM education programs across the country. And 
I am proud to be working with the NAM on this effort, as the 
organization is truly committed to the success in this area.
    Modern manufacturing is no longer a dirty job, but as a 
leader in the industry, we need to get our hands dirty to fix 
the skills gap problem. Industry-recognized credentials and 
mentoring, business leaders need to get engaged with educators. 
Those are two approaches that are working for me in Illinois. 
Quality Float Works may be a small business, but we are 
determined to make a large impact by changing our education and 
skills pipelines to create more opportunities for the next 
generation of the United States workforce.
    Thank you very much.
    Mr. Terry. Thank you.
    [The prepared statement of Ms. Westlund-Deenihan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. Dr. Lopez, you are now recognized for your 5 
minutes.

                   STATEMENT OF LAZARO LOPEZ

    Mr. Lopez. Thank you, Chairman Terry, Ranking Member 
Schakowsky, and members of the subcommittee.
    The High School Survey of Student Engagement conducted by 
Indiana University has surveyed now more than 350,000 students 
across 40 States and found what parents of teenagers already 
know, that many of them are bored. So when Wheeling High School 
was redesigned as a comprehensive high school with a STEM 
focus, we wanted our school to be engaging by being relevant to 
our students in a way that prepared them for life beyond high 
school. So to engage students from the moment they enter our 
school, our conversations had to change. We didn't ask them, 
what do you need to graduate? Rather, we asked, what do you 
want to do with your life? And the answer to that question 
serves as the basis from which a school can embrace each 
student through the purposeful selection of electives within a 
career pathway, provide cocurricular activities that supports 
them, and partner with local businesses to facilitate external 
experiences that inform, all before they graduate high school.
    By graduating students with a Diploma Plus, the choice is 
theirs to make. Whether the student transitions directly to a 
2- or 4-year college, trade school, the military, as I did, or 
begins a meaningful career out of high school and returns to 
school at a later date. The student is in control because they 
have options.
    There are three nonnegotiable principles that drove the 
work in the development of these pathways: One, a sequence of 
courses that led beyond high school on each one; external 
experiences that provide students a real-world understanding of 
career areas through internships, problem-based learning 
experiences; and, three, an opportunity to earn college credit 
or an industry certification. Students graduating with a 
Diploma Plus leave high school more competitive, already 
building her or his resume.
    In examining the value of the career pathways as an 
effective education model, we want to understand how it impacts 
students. So I want to talk to you about Francisco. Francisco 
grew up in one of the tougher parts of town. He got into his 
first year of trouble throughout his time at school, and the 
deans all knew him by name. His teachers knew he was smart, but 
his path to graduation was far from assured; that is, until 
Francisco discovered the school's manufacturing program where 
something finally clicked.
    Francisco worked extremely hard, staying after school at 
least 3 days a week to get one-on-one time on the machines. 
Francisco took the MSSC and NIMS certification exams, earning 
entry-level credentials, and he landed his first job at 
Holbrook Manufacturing in Wheeling. And since his graduation 
last December, after 4 \1/2\ years in high school, Francisco is 
regarded by Holbrook as a model employee. And today Francisco 
is thrilled about being in manufacturing. He was proud to share 
with us that he's able to contribute financially to his family, 
noting that he was actually making more money than his mom. 
He's had multiple raises in the last 6 months and has already 
bought his first car. And he plans now to continue his 
education at Harper College and earn an associate's degree 
specializing in CNC machining.
    Now, while some students enter high school at risk, others 
may be successful academically, but need direction in 
discovering and fostering that passion. So think of our own 
college experience and how anxious you were to get to your 
major coursework. If we can connect the dots between what 
students are excited about in their future and the classes they 
take today, students are more engaged in class, more motivated 
to do the work, and more likely to challenge themselves with 
rigorous coursework, such as honors or Advanced Placement. We 
know students who self-identify with a specific career in mind 
prior to leaving high school are 80 percent more likely than 
their counterparts to earn a certification or degree 6 years 
post-high school.
    So in this other example, Mallory entered the engineering/
manufacturing program with a small spark of interest in how 
things are made. Her experiences in the Project Lead the Way 
Computer Integrated Manufacturing class; Robot Rumble, which we 
host locally; and the opportunity to design and manufacture her 
ideas into reality led her into an internship at Swiss 
Precision Machining. Even as she currently attends the 
University of California pursuing a degree in aeronautical 
engineering, she returned to Swiss in the summers to work, and 
she informed her teacher that it was one of the greatest 
opportunities she had; that in the summer, she did a lot of 
price quoting, figured out the most efficient way to machine 
parts, and she actually got to run the machine.
    Today Mallory boasts an internship with the Air Force 
Research Laboratories in California. She says, ``I feel like 
the biggest reason why I got that job was because of the 
machining experience I had. My boss was impressed with that 
opportunity at Swiss.''
    So the goal at Wheeling High School is to make the school 
relevant. That is why we house a state-of-the-art manufacturing 
facility, a hospital lab with a senior care facility, a 
nanotech research lab, and currently developing a business 
incubator lab. Our goal is to maximize the value of their high 
school experience.
    And the work is scalable. Keep in mind, Wheeling High 
School is a nonselective Title 1 public school with a poverty 
rate now at 45 percent, and over half the incoming freshmen 
identified at risk. That means more than half are coming in at 
about a fifth-grade reading and math level. Yet in the last 6 
years, we have grown by 80 percent and 24 AP courses, and 
ranked as one of America's best high schools, and designated as 
the national model for manufacturing/engineering education, 
with an SME prime designation.
    School leaders must develop public-private partnerships 
that bring the outside world into the school and give students 
authentic, real-world experiences to practice 21st century 
skills in the context of their future. That was Francisco and 
Mallory's journey and the pathway out of boredom for students 
at the 24,000-plus high schools across America.
    Thank you.
    Mr. Terry. Thank you.
    [The prepared statement of Mr. Lopez follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. And our last witness before questions, Dr. Hill, 
you are recognized for 5 minutes.

                  STATEMENT OF CATHERINE HILL

    Ms. Hill. Thank you. Chairman Terry, Ranking Member 
Schakowsky, and remembers of the committee, thank you for this 
opportunity to speak with you today about the Nation's future 
workforce. My name is Catherine Hill, and I am the Director of 
Research at the American Association of University Women, and 
those university women include many community college members 
as well.
    Mr. Chair, I would like to request that our report ``Women 
In Community Colleges: Access to Success'' be entered into the 
record.
    Mr. Terry. So ordered; no objections heard.
    [The report is available at http://docs.house.gov/meetings/
IF/IF17/20131115/101480/HHRG-113-IF17-Wstate-HillC-20131115-
SD001.pdf.]
    Ms. Hill. On behalf of our 170 members and supporters, I am 
pleased to share our perspectives with you today about this 
very important part of our educational system, including over a 
third of the college students today who are at community 
colleges. And more than--more and more, we are seeing the 
students attend directly to community colleges, and that part 
of the student body is growing. Echoing a comment made earlier, 
we are going to need to make manufacturing cool to these new 
community college students, including women, who often see 
manufacturing as a guy thing.
    Science, technology, engineering, and math is often 
discussed in terms of the college-educated workers and the 
Ph.D. workforce, but STEM is much more than that and includes 
many middle-skilled jobs, as you no doubt know. And to keep our 
competitive edge, we need to use all of our brainpower to fill 
these positions, including both men and women. Too often women 
aren't at the table, not at the lab, not on the manufacturing 
floor or the construction site, and we do need to change that.
    AAUW believes that the community colleges could play a 
critical role in moving women into these roles and ending the 
shortage of women and workers in these STEM fields. By engaging 
our educators today, we are going to better be able to reach 
builders of tomorrow.
    Women are nearly half of the U.S. workforce; they are only 
about a quarter of the STEM workforce. And women make up a very 
small fraction of many of our skill trades, such as 
electricians and mechanics. And many of these job, these 
middle-skill jobs, require either a little more than high 
school education, but less than a bachelor's degree, and there 
are about 29 million of these jobs in the country today. And we 
have many graduates coming into those positions, but we need 
more. Obviously, the career and technical system that trains 
people for this kind of a job is going to be really critical 
for our future.
    So there are two major problems I want to mention today. 
One is that employers often discuss this mismatch in 
preparation and skills. And, second, we have very few women 
being prepared for some of these jobs.
    Community colleges can provide solutions to both of these 
challenges. Workforce development has always been at the center 
of community colleges' mission, and they are well situated 
today with growing populations to be able to help serve this 
function in the future.
    We see gender segregation at community colleges just as we 
do in the workforce, particularly in the STEM fields and some 
of these middle-skill credentials, and we know that community 
colleges can do better. Some of the research that we did found 
that community colleges are an especially good training ground 
for STEM and nontraditional fields. And we found that actually 
more women use community colleges at some point in their path 
to a STEM degree than men. So these are especially important to 
women, and I think that cost is a big part of that picture, 
because you can take a few classes inexpensively in a community 
college before making a commitment to the field. And this is 
important for people who are somewhat unsure of the field, but 
might, in fact, become very successful as they learn more about 
it.
    There are a number of ways that we can reach out to women, 
recruiting them into some of these new programs. That includes 
things like childcare services, supportive learning 
environments, participation at a number of other kinds of 
events. We have more of these information on these 
recommendations in our report and in our written comments.
    One last hurdle I wanted to mention before closing. 
Community colleges do not have the same level of data-rich 
information at we have for our 4-year programs. Our IPEDS data, 
our Federal data sets, don't cover all of the students in 
community colleges. And in particular, they have not been good 
in the past in talking about part-time students, who are a 
majority of our community college students.
    If we want to know how community college students are 
faring, we need to know about all of the students at community 
colleges throughout their careers; so those are who part time, 
those who are full time, those who take longer than 2 years, 
and those who take even up to 4 or 6 years, and also those who 
transfer. We are getting better in this area, but it is 
something that we desperately need to see more work done so 
that we can better understand the program and better evaluate 
the programs so we know what is working.
    In closing, I would like to say the community colleges are 
critical for educating the workforce in our manufacturing and 
building fields, and they are especially important to women who 
benefit from these opportunities that are not traditionally 
considered appropriate for them. If we want to build a strong 
future workforce, we need to ensure that both men and women are 
at the table and at the construction site.
    Thank you for this opportunity, and I am happy to take your 
questions.
    Mr. Terry. Thank you, Dr. Hill. Appreciate your testimony.
    [The prepared statement of Ms. Hill follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Terry. It is now our time to ask you questions. Each 
Member has 5 minutes to ask questions and have a colloquy with 
whoever they choose to ask questions to.
    So I am going to start off with more of a general question, 
but set up by Ms. Knox within your testimony was some alarming 
statistics about the lack of computer science teachings within 
our schools. But there also seems to be, at least looking 
around where I live, a lack of teaching trade skills anymore. 
And it comes back to what Ms. McNelly said in that we have 
become a culture that says basically--and I will admit I am 
guilty of this with my three sons. Since they have been able to 
talk, I have asked them questions like, ``What college are you 
going to?'' We have this culture that if you are a high school, 
and you are not placing X amount of people in great colleges, 
then you are not a good high school. Or community colleges that 
are now advertising come to us, and we can provide you the 
affordable first 2 years, get all of your basic core college 
classes out of the way cheaper, and have pushed some of the 
trade education that was once within their jurisdiction out to 
make room for the more affordable 2 years of college.
    So how do we break through this attitude that parents have, 
that has permeated into both our K through 12 and our community 
college? So, Ms. McNelly, I wanted you to say something, and 
then I am going to come back to Dr. Hill and then Dr. Lopez.
    Ms. McNelly. Thank you, Chairman Terry.
    I think there was a common theme here in measuring what 
matters. And actually to your point that not just parents do we 
have an expectation, but equally within counselors, how they 
counsel students as to what an important performance outcome 
is. And I do think within the jurisdiction of Congress there 
should be a way in which to look at what performance outcomes 
in an education environment actually truly mean, to Dr. Hill's 
point that somebody who's a part-time student and actually is 
working full time or gets an industry-based credential and gets 
a job is actually considered a negative outcome within the 
education system. Therefore, it is shadowed either off on the 
side without credit, customized job training, or it is 
considered a negative impact.
    And I think there probably is some action that could look 
at connecting the data points and what defines success, because 
certainly from a manufacturing perspective, you measure what 
matters. And if getting a job matters, then we need to be able 
to count that, too.
    Mr. Terry. Well, I appreciate that.
    Dr. Hill, particularly focusing on the role of community 
colleges and maybe the trend away from tech, technical skills.
    Ms. Hill. Absolutely. I will point--you are absolutely 
right that people are now looking at community colleges as the 
inexpensive first 2 years of their 4-year programs. We also 
want to see our associate degree programs and our certificate 
programs to be well utilized. And I think you do have a level 
of--little bit of a PR problem maybe where we need to start 
talking about those credentials with greater--I will say the 
word ``respect,'' and seeing those as really adding and 
contributing to our societies.
    Mr. Terry. Can a community college be both a tech school 
and the first 2 years? In a way, don't those themes conflict 
with each other, at least through public perception?
    Ms. Hill. Certainly. There is a wide variety of community 
colleges in our systems. And as I am sure most of you have 
interacted with various community colleges throughout your 
careers, you can see that some--they really try to talk about 
the current work site and workforce needs in their communities. 
And this new system--we do ask our community colleges to be all 
things to all people, and sometimes we may need to make some 
hard choices.
    Mr. Terry. Well, I respect that.
    I am going to unfortunately not have time for you, Dr. 
Lopez, but I think that this is an important area, and you will 
get asked a lot of questions on it. But I will get one 
editorial comment in defense of community colleges, and I think 
the movement to being the first 2 years is an unintended 
consequence of how high tuition rates have really become.
    At this time I recognize the ranking member, Jan 
Schakowsky.
    Ms. Schakowsky. First I want to say to Ms. Westlund-
Deenihan, I should have been welcoming you as an Illinois 
manufacturer, but--and close to my district, not in it. But I 
think one of the points that you are making is that, instead of 
importing workers, we need more companies that export products 
made by American workers. I am hoping I can rely on you in my 
district to talk to some of my smaller businesses about 
exporting and how we can--that would be great.
    Dr. Lopez, I wanted to talk to you about Wheeling. I am 
thinking--as you talk, I am thinking about other high schools 
that are in my district and going into them, and I am not 
seeing laboratories, I am not seeing machines. You are a Title 
1 school. This is not a privileged school. How did you manage 
to bring in the nanotechnology lab? I know that Secretary 
Duncan came to visit you last month. How can I help the other 
schools in my district to develop for their students who fit 
your demography pretty well to have the same kinds of things?
    Mr. Lopez. You know, the first thing I would say is the 
reason we have the facilities, certainly they are--they are 
great to have and they are cool, but the real reason is is 
because we need to bring the outside world in, especially in 
the communities who ``I don't have an uncle who is an engineer, 
I don't have a family friend that can take me to the 
hospital.'' So we need bring that into the schools. So that 
really was a driving factor, and also exposing kids to what is 
possible. When you live in a secluded environment, and all you 
know is your neighborhood, you don't know what is possible.
    Ms. Schakowsky. Well, where are the resources to bring it 
in?
    Mr. Lopez. So in order to pull that--what I will tell you 
is that I am a second-career educator and spent a lot of time 
in business, and what I did is--you have to partner. You have 
to go out and tell your story to every business and every 
government agency that will listen to you. So we partnered with 
the Department of Commerce and Economic Opportunity, and they 
did invest heavily in our facilities and I know they are 
willing to----
    Ms. Schakowsky. That is an Illinois agency.
    Mr. Lopez. That is an Illinois agency, Illinois Department 
of Commerce and Economic Opportunity. As well as the Illinois 
Science and Tech Coalition, who is a private foundation 
supporting science and technology development in Illinois, who 
have a vast array of industry partners that can come to bear 
and help support through experiences and internships.
    But I will also say that you have to believe that 
absolutely anything is possible, and you have to go out there 
as I have to emphasize the role of the school leader. They have 
to go out there, and they have to sell their school, and they 
have to make it happen, and they have to bring those businesses 
and sell them that their students can provide a win-win 
relationship with them so that they have an opportunity to 
partner and have future employees for their companies.
    So there is----
    Ms. Schakowsky. So you said that it is scalable, meaning--
--
    Mr. Lopez. Yes.
    Ms. Schakowsky [continuing]. That it is not just the fact 
that you are such a dynamic leader, but that we can do this in 
other places.
    So how do we teach the leadership of these schools to be 
able to do this?
    Mr. Lopez. You know, what I will say is that the school 
leaders today really need to be sensitive and understand the 
economic realities in their community and then in their broader 
region so that they know what are the strengths of that 
community, and that is what you begin to build on.
    And so we do need our school leaders to recognize that they 
don't work in a vacuum anymore. It is not about giving the kid 
just a high school diploma; it is about preparing them for 
life. So they have to be engaged with the same network of 
Chambers and business communities so they know what they can do 
so that their kids have a future once they leave, and be 
creative, and think outside the box, and believe and make 
things happen. And I think it is certainly possible.
    Ms. Schakowsky. OK. Ms. Knox, looking at--your written 
testimony has so much, it is just a wealth of information. One 
of the charts I am looking at, 15 States that count computer 
science toward high school graduation requirements, that is 
really just a few, and I notice my State is not among them. So 
are you saying that the State boards of education, et cetera, 
require that? Tell me more about that.
    Ms. Knox. In the States that do count it, it is basically 
the State is rewarding the student with either a math or 
science credit which is counted toward high school graduation. 
In the cases where it is not counted in that way, if you were 
to take computer science as a student, what happens is you 
receive an elective credit.
    Ms. Schakowsky. I see.
    Ms. Knox. And in many States, that would be like taking 
cooking class.
    There are seven of you here right now, and five of the 
States don't count it that you represent. And we are actually 
actively in those States right now with State boards of 
education, State superintendents. We would love your 
partnership and help in raising the issue and asking for this 
simple--not requirement, this way of rewarding students for 
taking computer science.
    I want to just add that we have had focus groups with 
students and asked them why they are not taking computer 
science, and they have said, well, that is where the dumb kids 
go. And when you ask them, why do you think it is where the 
dumb kids go, they said, well, I want to go to college, and I 
need to take as many math classes as possible. This isn't a 
math class; this is an elective class.
    Ms. Schakowsky. Yes. Let me just say, I don't know if you 
mentioned in your testimony, that, Ms. Westlund-Deenihan, you 
are also chair of the Illinois State Board of Education's 
Gender Equity Advisory Committee, and I would like to talk 
more--I am out of time, but I would like to talk to you more 
about that as well. We do need more girls to take these classes 
and more women involved in STEM and in manufacturing. Thank 
you.
    Mr. Terry. Mr. Guthrie, you are recognized for 5 minutes.
    Mr. Guthrie. Thank you, Mr. Chairman.
    And thank you guys for being here. I appreciate it very 
much.
    This is very near and dear to me. I worked in manufacturing 
before I came here. My family has an aluminum foundry, 
automotive supply business, and I can tell you what you are 
talking about--trying to find skilled workers, machinists, tool 
and die makers--is just extremely difficult to do. And they can 
make really good incomes. And almost all of our managers--like, 
middle-level and some higher-level managers--came to us from a 
tech school background and just worked their way through the 
system of the company. So not only is it good entrance level 
for wages, but it also is a great forward-level rise for wages.
    So it is something that has been near to me, and I have got 
a bill out called the REBUILD Act, which is about American 
manufacturing, reducing employer burdens, unleashing 
innovation, and labor development is the LD part of it. And it 
has got a lot of different principles or parts to it, but one 
is the America Works Act, and that we are trying to push 
forward.
    And, you know, a couple--one thing I was going to ask you, 
but we are about out of time, so I just want to get straight to 
the other, is what can the government do, how we are getting in 
the way.
    But one thing of it is--and, Dr. Lopez, I do want to say 
that I was in the State legislature on the education committee, 
and tried to find schools that you wouldn't predict being 
successful that were, because I don't think you point at 
failure, you try to find success and replicate and scale it, 
and it was always a school leader. Not saying they didn't have 
great staff, they didn't have great teachers, they didn't have 
a great system backing them, but you could have all of that and 
a poor school leader, and the school was failing. So that is 
what we have to replicate actually, strong leadership at the 
school level.
    But the one thing that I have always kind of wondered, I 
cannot walk into a manufacturing plant--I love to go in them, 
so I go in every one in my district--without the manager saying 
or the human resources person, ``We cannot find skilled labor. 
We can't find it. We can't find it. We can't find it.'' And 
this is not $10-an-hour jobs. These are the up-in-the-$20-an-
hour jobs.
    So, for some reason, in this level of employee, the market 
is failing, because the market--the jobs or the supply or the 
demand is there, they are paying pretty good prices for it, 
particularly what some of these people get anywhere else, but 
for some reason the market is failing to develop that skill of 
worker.
    Does anybody have an idea why the market is failing to do 
that, what is competing with that market, and where these kids 
are going? Yes. Any of you. I just open up to the----
    Ms. Westlund-Deenihan. Well, I would blame that on 
business, because business has not been talking to the 
community colleges in the past and not really telling them what 
our needs are as far as where the real jobs are, what 
curriculum is important and relevant to the workforce.
    And I think that addressed something that Chairman Terry 
said before. You know, if--why are these being turned away, 
these jobs? I think a lot of it is responsibility of business. 
We have not been working with community colleges. It is 
important for us to talk about it. In the past maybe we have 
tried to throw money at it, a scholarship, or we have given 
some piece of equipment that is--doesn't have all its parts and 
is not relevant to real workplace jobs. And it is more 
important for business to provide--to mentor, to talk to 
community colleges and tell them, you know, regionally what are 
the skill sets that are needed for the jobs that you have 
available, provide internships.
    And, for example, we even have a--for high schoolers we 
provide a program that is a work-study program to have kids 
that are good with hands-on to come in to work--go to high 
school in the morning and in the afternoon come and work--and 
get paid to be able to have skill sets so that they will be 
able to graduate with a vocational training and, you know, go 
on.
    Mr. Guthrie. Yes. I think Dr. Lopez looks like he wants to 
answer. But the bill that I am working with and am part of, 
that it is a business majority, the Workforce Investment Board 
has to be a business majority, business quorum so that when 
Federal money flows, it is flowing to people--to say these are 
the people we want. These are who we are going to put to work 
and to hire.
    Dr. Lopez, I think you were anxious to jump in.
    Mr. Lopez. And I will just take a couple of seconds. Can I 
just say this is a space where Perkins and CTE funding really 
has had a significant impact at schools being able to buy that 
equipment and be innovative, and that that is certainly an area 
that is needed for support? And schools across the country were 
closing these facilities down. They were closing their 
manufacturing facilities. And I think there has been a lot of 
work by SME and by NAM to encourage high schools to go back and 
open those spaces and buy modern equipment so that it is 
relevant, and engaging and available to their local community.
    Mr. Guthrie. It is strange, because showing up in a 
manufacturing plant with maybe just your high school diploma 
and saying, ``I am here to go to work,'' it is hard for a 
company to afford to be able to--your productivity level to 
afford to pay. Those are the jobs that we have lost. But if you 
show up with a skill----
    Mr. Lopez. Yes.
    Mr. Guthrie [continuing]. And you can program a machine, 
you can make a middle-class income in manufacturing today on 
the factory floor if you have those skills. So that is great 
that we are here.
    Thanks, Mr. Chairman.
    Mr. Terry. I would give you a little leeway, but we have 5 
minutes and 12 seconds to go vote, of which Mr. McNerney is 
going to use 5 minutes of that.
    Mr. McNerney. Or less.
    Mr. Terry. You are recognized for 5 minutes, and then we 
are going to adjourn.
    Mr. McNerney. Thank you, Mr. Chairman.
    I really appreciated Ms. McNelly's comments about making 
manufacturing a cool pathway for a career, and I think what Dr. 
Lopez is talking about helps that. I mean, if you see that as 
cool, or if you see it as relevant to your life, you are going 
to put a little more into it. You are going to make it cool. So 
we need to hear more about how to do that.
    Having your institutes where you can learn about different 
things that are relevant is very important. It is something 
that we need to focus on, I think, empowering our schools to do 
that. Schools in my district that do that are having a good 
deal of success.
    But something that Ms. Knox said is that we need to support 
teachers. I think we need to make teaching cool, because if we 
don't get the best teachers out there, if we don't have good 
teachers out there, and I don't say we don't--but we need the 
best teachers out there. We need to make teaching cool. So that 
is something we need to focus on a little bit, too, in my 
opinion.
    Any way we can attain that goal, Ms. Knox? How do we get 
that support out to teachers? How do we make them feel like 
that is where they want to be?
    Ms. Knox. We have done a little research here, and one of 
the key areas is that the incoming student to the teacher 
preparation program needs to feel that they can actually make a 
difference. And so there is a campaign that is being launched. 
It is a public-private partnership among many different players 
called Teach.Org to attract people into the teaching 
profession, but also I think we can make sure that we are 
supporting Title 2 of the Higher Education Act, because there 
is a piece in there to make sure that teacher preparation is 
strengthened.
    So you want to go into a field, want to be attracted to a 
field where you are not isolated, where there is a career 
ladder, where you feel like you can make a difference.
    Mr. McNerney. And prestige in the community as well.
    Ms. Knox. Yes. I mean, there are some great books on this 
right now, ``The World's Smartest Kids and How They Got That 
Way.'' And there is a comparison of three different countries 
with the United States, and the way that teachers are revered 
in other countries and the way they are attracted into the 
profession is radically different than in America.
    Mr. McNerney. I would venture to guess that just about 
everybody on this committee had a teacher that made a 
difference in their lives.
    Ms. Knox. Sure.
    Mr. McNerney. Ms. Hill----
    Ms. Hill. Yes.
    Mr. McNerney [continuing]. One of the things that I 
understand is that there are more women graduating from 
university now than there are men.
    Ms. Hill. Absolutely, yes, at the 4-year level and at the 
2-year colleges.
    Mr. McNerney. But there is still a huge income gap.
    Ms. Hill. Oh, yes. What we see happening is that women and 
men are going into different fields, and women are not going 
into some of these middle-skills fields that they feel are 
somehow not important or just simply not for them. And one of 
the things that we do is look at some of the stereotypes and 
bias that all of us carry around with us, and yet we can ask 
ourselves to look again at those biases and help women look at 
fields that are not traditional for them. And there are a 
number of different techniques and programs that are helping to 
do that today among educators, as well, and among young women, 
because, of course, we have these internalized.
    But one of the challenges that I wanted to mention in any 
of these programs is that I have seen community colleges say 
that they don't have enough people who want to take these 
classes in middle-skill jobs, the, you know, electrical jobs 
and the welding jobs, that they don't have--and so they don't 
offer them, which means that then, of course, people don't look 
to them to provide those jobs. So someone is going to have to 
get it started. And I think for women, getting them excited and 
interested in these programs can be as simple as having them in 
a brochure.
    And this idea of active recruiting is something I want to 
stress. I think a lot of programs at colleges, professors don't 
think they need to recruit students. I mean, that isn't 
something that they have done in the past. But when we have 
areas where we really want more students going into these 
areas, we do need to recruit them actively.
    Mr. McNerney. Thank you, Mr. Chairman. I yield back.
    Mr. Terry. Thank you. And that does conclude our hearing. 
And the committee has the right under our rules to submit 
questions to you. I don't know if any will be, but if there 
are, we would appreciate a 2-week turnaround in answering 
those.
    I do have a feeling that our staffs will be reaching out to 
you. Jan and I are very passionate about finding a solution, 
but we are going to need your continued advice, and counsel and 
direction.
    I want to thank you all for coming here and providing your 
testimony and your answers, and you have been of great 
assistance to us. We are adjourned.
    [Whereupon, at 10:45 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                 [all]
</pre></body></html>
